No.3; -S2j

In The
Supreme Court of the United States
♦

SHLOMIT RUTTKAMP,
Petitioner,
vs.

THE BANK OF NEW YORK MELLON, ET AL.
Respondents.
♦

On Petition for A Writ of Certiorari
From The Supreme Court of Connecticut
♦

PETITION FOR A WRIT OF CERTIORARI
♦

Petitioner
Pro se: SHLOMIT RUTTKAMP
P.O. Box 611
Westbrook, CT 06498
Phone: (860) 853-8859
Email: rshlomit@vahoo.com
Executed on October 5, 2021

1

QUESTION(S) PRESENTED
Questions presented as follows:
I.

Granting sanctions without the
court’s adequate notice of its
intention to impose sanctions and
the opportunity to be heard on the
record and discovery of evidence is
a violation of the due process clause
of the 14th Amendment to the United
States Constitution.

II.

A judicial officer cannot
constitutionally take a real
property of a homeowner based
upon foreclosure mortgage to which
the homeowner was not an
obligor/mortgagor, and the note
ruled unenforceable as a matter of
law, without a violation of the due
process clause of the 14th
Amendment, the statute of state and
federal constitutional right to due
process of law.

APPENDIX A

App-1

11

QUESTION(S) PRESENTED - Continued
III.

A judicial officer cannot
constitutionally participate in “[a]
scheme or artifice to defraud, or for
obtaining money or property by
means of false or fraudulent
pretenses, representations, or
promises...”.
LIST OF PARTIES

All parties appear in the caption of the case
on the cover page. A list of all parties to the
proceeding in the court whose judgment is the
subject of this petition is as follows.
1. The Petitioner, Pro Se Shlomit Ruttkamp,
is a divorced woman who is the sole owner of the
foreclosure property located at 510 McVeagh
Road, Westbrook, CT 06498 in the custody of the
court which she was awarded by the court as per
the divorce decree agreement transferred from the
first Defendant, William J. Ruttkamp, who was
the sole borrower of the mortgage on the subject
property. A quitclaim deed was filed in the
Westbrook Town Hall in Book Volume 302, pages
875-877 on June 16, 2010, which was the last
transaction filed prior to the first Defendant,
William J. Ruttkamp’s bankruptcy procedures

Ill

LIST OF PARTIES - Continued
and the dismissal of February 27, 2012, for lack of
subject matter jurisdiction.
2. The Respondent is The Bank of New York
Mellon Corporation, d/b/a The Bank of New York
Mellon (“BNY Mellon”), a multitrillion dollar
company, a public stockholder corporation doing
business under the trade name The Bank of New
York Mellon, a Delaware Corporation, with its
principal place of business located in the city of
New York with the address of 240 Greenwich
Street, New York, NY 10286. Therefore, The Bank
of New York Mellon is a citizen of Delaware with
its headquarters in New York City. BNY Mellon is
an investment company. They provide investment
management, investment services and wealth
management that help institutions and
individuals succeed in markets all over the world.
BNY Mellon was formed in July 2007 through the
merger of The Bank of New York Company, Inc.
and Mellon Financial Corporation and became
The Bank of New York Mellon Corporation.
3. The Respondent, The Bank of New York,
does not exist as of July 2007 as it was dissolved
in the merger with The Mellon Financial
Corporation and became The Bank of New York
Mellon Corporation.

IV

LIST OF PARTIES - Continued
4. The Respondent, CIT Mortgage Loan
Trust 2007-1 is not a bank. It is a fraudulent
entity created by the Plaintiffs attorneys. Neither
the DFS nor the Secretary of the State of
Connecticut has such an entity with that name.
5. The Respondent, attorney for the
Plaintiff, The Bank of New York Mellon, Attorney
Geraldine Ann Cheverko (Juris No. 418503), 10
Bank Street, Suite 700, White Plains, NY 10606.
6. The Respondent, William J. Ruttkamp,
P.O. Box 343 Westbrook, CT 06498, the sole
borrower of the mortgage loan, had his
bankruptcy attorney file an appearance on the
foreclosure case but did not file a notice of
bankruptcy or any information regarding the
bankruptcy procedure.
7. The Respondent, attorney for the first
Defendant, William J. Ruttkamp, Timothy Lodge
(Juris No. 416965), P.O. Box 1204, Glastonbury,
CT 06033. He is the bankruptcy attorney for the
first Defendant, William J. Ruttkamp.
Bankruptcy Case # 11-31649 He never disclosed
the bankruptcy procedures in the foreclosure case
yet put an appearance as the Defendant’s
attorney.

V

LIST OF PARTIES - Continued
8. The Respondent, HOP Energy LLC, d/b/a
Valley Oil, attorney Reveley William G. &
Associates LLC (Juris No. 423840), P.O. Box 657,
Vernon, CT 06066, claims an interest in the
property by virtue of Judgment Lien in the
original principal amount of $1,663.29, dated July
7, 2009 and recorded on July 23, 2009 in Volume
297 at Page 327 of the Westbrook Land Records
which was defaulted and also discarded in the
bankruptcy procedures of the first Defendant,
William J. Ruttkamp in 2011, and in 2015 in the
bankruptcy of the Petitioner, Shlomit Ruttkamp.
All parties do not appear in the caption of
the case on the cover page. A list of all parties
to the proceeding in the court whose judgment is
the subject of this petition is as follows:
1. The Respondent, Mortgage Electronic
Registration, Inc. as Nominee for Accredited
Home Lenders, Inc., was mentioned only one time
in the complaint filed February 19, 2010 and was
not in the caption of the case on the cover page
and was never mentioned as a party.

VI

LIST OF PARTIES - Continued
2. The Respondent, Vericrest Financial,
Inc., successor to The CIT Group/Consumer
Finance, Inc., whose address is 715 S.
Metropolitan Ave., Oklahoma City, OK 731082090 acting herein by and through a duly
authorized officer, the owner and holder of one
certain Promissory Note executed by William J.
Ruttkamp (“Borrower”). The true transfer and
assigner to The Bank of New York Mellon which
was never mentioned in the first complaint filed
February 19, 2010 and was also not mentioned in
the first amendment complaint that was filed on
September 26, 2012 (docket # 137.00 and
#138.00), two years after the filing of the first
complaint (statute of limitations of amendment
complaint is only one year), nor in the caption of
the case, nor anywhere else. Vericrest Financial,
Inc., successor to The CIT Group/Consumer
Finance, Inc., was added in the second
amendment complaint filed on August 22, 2014
(docket # 146.00) without permission or request to
add a plaintiff or substitute party as the book of
law requires. They did it in a fraudulent act.

vn

LIST OF PARTIES - Continued
3. The Respondent, Select Portfolio
Servicing, Inc. (“SPS”), a mortgage servicer that
was never mentioned in any of the documents
prior to the granting of the extension of time upon
which the Petitioner will file the petition for writ
of certiorari. In fact, the law group McCalla
Raymer Leibert Pierce LLC, and attorney
Benjamin T. Staskiewicz (Juris No. 417736), 50
Weston Street, Hartford, CT 06120 is claiming to
represent SPS, but was never mentioned before in
any of the documents.
RELATED CASES
CASE NAMES AND DOCKET NUMBERS OF
ALL PENDING APPEALS WHICH ARISE FROM
SUBSTANTIALLY THE SAME CONTROVERSY
AS THIS OR INVOLVE CLOSELY RELATED
ISSUES
A. The Bank ofNew York Mellon vs. William
Ruttkamp, et al. Case No. 200322 filed on
May 13, 2021, denied on June 1, 2021
B. The Bank ofNew York Mellon vs. William
Ruttkamp, et al. Case No. 200215 filed on
January 25, 2021, granted on May 11, 2021

Vlll

RELATED CASES - Continued
C. The Bank ofNew York Mellon vs. William
Ruttkamp, et al. Case No. 200204 filed on
January 14, 2021, denied on May 11, 2021
D. The Bank ofNew York Mellon vs. William
Ruttkamp, etal. Case No. 200194 filed on
December 30, 2020, dismissed on May 11,
2021
E. The Bank ofNew York Mellon vs. William
Ruttkamp, et al. Case No. AC 43974 filed
on February 27, 2020, after the vesting of
the title order on February 11, 2020
F. The Bank ofNew York Mellon vs. William
Ruttkamp, etal. Case No. MMX-CV106001915-S filed on March 9, 2010, set the
new law date on November 25, 2019, to
January 6, 2020, after the DefendantAppellant received the extension of time
upon which she will file petition for writ of
certiorari to and including March 20, 2020.
Additional order to vest the property on
February 11, 2020, once again violating the
Defendant-Appellant’s Fourteenth
Amendment to due process of law.

IX

RELATED CASES - Continued
G. The Bank ofNew York Mellon vs. William
Ruttkamp, et al. Case No. 200179 filed on
December 4, 2020, dismissed on December
22, 2020
H. The Bank ofNew York Mellon vs. William
Ruttkamp, et al. Case No. 200128 filed on
October 26, 2020, denied on November 10,
2020, notice sent November 13, 2020
I. The Bank ofNew York Mellon vs. William
Ruttkamp, etal. Case No. 200110 filed on
October 6, 2020, denied on November 10,
2020, notice sent November 13, 2020
J. The Bank ofNew York Mellon vs. William
Ruttkamp, et al. Case No. 190205 filed on
January 16, 2020, denied on February 5,
2020
K. The Bank ofNew York Mellon vs. William
Ruttkamp, etal. Case No. SC 190196 filed
on September 9, 2019, denied on October
10, 2019
L. The Bank ofNew York Mellon vs. William
Ruttkamp, et al Case No. AC 42865 filed
on April 29, 2019, dismissed on July 17,
2019, and again July 18, 2019

X

RELATED CASES - Continued
M, Shlomit Ruttkamp vs. Bank ofNew York
Mellon, United States Supreme Court,
Application No. 19A566 filed on November
12, 2019; received extension of time upon
which to file a writ of certiorari up to and
including March 20, 2020
N The Bank ofNew York Mellon vs. William
Ruttkamp, et al. Case No. AC 39264 filed
on May 31, 2016, dismissed July 13, 2016,
as it was filed prematurely
O. The Bank ofNew York Mellon vs. William
Ruttkamp, et al Case No. AC 40039 filed
on January 23, 2017, published Bank of
New York Mellon v. Ruttkamp, 188 Conn.
App. 365 (2019)
P. The Bank ofNew York Mellon vs. William
Ruttkamp, et al. Case No. SC 190141 filed
on July 26, 2019, returned July 26, 2019,
for compliance of the rules of the Supreme
Court

XI

RELATED CASES - Continued
Q. The Bank ofNew York Mellon vs. William
Ruttkamp, etal. Case No. SC 190174 filed
on August 19, 2019, returned on August 20,
2019, for compliance of the rules of the
Supreme Court
R. The Bank ofNew York Mellon vs. William
Ruttkamp, etal. Case No. SC 190175 filed
on August 19, 2019, returned on August 20,
2019, for compliance of the rules of the
Supreme Court
S. The Bank ofNew York Mellon vs. William
Ruttkamp, etal. Case No. SC 190179 filed
on August 20, 2019, returned on August 21,
2019, for compliance of the rules of the
Supreme Court
T. The Bank ofNew York Mellon vs. William
Ruttkamp,, etal. Case No. SC 190193 filed
on September 5, 2019, returned on
September 5, 2019, for compliance of the
rules of the Supreme Court
U. The Bank ofNew York Mellon vs. William
Ruttkamp, etal. Case No. SC 190319 filed
on December 27, 2019, dismissed on
January 8, 2020

Xll

RELATED CASES - Continued
V. The Bank ofNew York Mellon vs. William
Ruttkamp, etal Case No. SC 190451 filed
on April 30, 2020, returned on May 1, 2020,
for compliance of the rules of the Supreme
Court
W The Bank ofNew York Mellon vs. William
Ruttkamp, etal. Case No. SC 190454 filed
on May 4, 2020, denied on May 12, 2020
X. The Bank ofNew York Mellon vs. William
Ruttkamp, etal Case No. SC 200133 filed
on July 24, 2020

xm

TABLE OF CONTENTS
PAGE
QUESTION(S) PRESENTED

1

LIST OF PARTIES

n

RELATED CASES

Vll

TABLE OF CONTENTS

xm

INDEX TO APPENDICES

xvi

TABLE OF AUTHORITIES CITED

xix

PETITIONER PRAYS

1

OPINIONS BELOW

4

JURISDICTION

5

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED........................

8

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE
PETITION........................................

11

XIV

TABLE OF CONTENTS—Continued
PAGE
I.

Granting sanctions without the
court adequate notice of its
intention to impose sanctions and
the opportunity to be heard on the
record and discovery of evidence. Is
a violation of the due process clause
of the 14th Amendment to the United
States Constitution
13

II.

A judicial officer cannot
constitutionally take a real
property of a homeowner based
upon foreclosure mortgage to which
the homeowner was not an
obligor/mortgagor, and the note
ruled unenforceable as a matter of
law, without a violation of the due
process clause of the 14th
Amendment the statute of state and
federal constitution right to due
process of law
19

XV

TABLE OF CONTENTS - Continued
PAGE
III.

A judicial officer cannot
constitutionally participate in “[a]
scheme or artifice to defraud, or for
obtaining money or property by
means of false or fraudulent
pretenses, representations, or
promises...”
22

CONCLUSION

35

*

XVI

TABLE OF CONTENTS—Continued

INDEX TO APPENDICES
PAGE
APPENDIX A Connecticut Supreme Court
Order Denial Reconsideration
June 1, 2021,
App.l

APPENDIX B Connecticut Supreme Court
Order Granted Sanctions
May 11, 2021,
App.3

APPENDIX C Connecticut Supreme Court
Order Denial Motion to Dismiss
May 11, 2021,
App.5

APPENDIX D Connecticut Supreme Court
Order Dismissed Reconsideration En Banc
May 11, 2021,
App.7

APPENDIX E Connecticut Supreme Court
Order Dismissal of Motion for Sanctions on
September 23, 2020,
App.9

.1

t

1

'l

t

t

4

4

.•1

4

«

4

XVII

TABLE OF CONTENTS—Continued
PAGE
APPENDIX F Connecticut Superior Court
Order Granted motion for order on
February 11, 2020,
App.ll
APPENDIX G Connecticut Superior Court
Denial of Motion to Dismiss on
February 11, 2020,
App. 13
APPENDIX H Connecticut Superior Court Order
Dismissal of February 27, 2012,
For Lack of Subject Matter Jurisdiction
by Judge Morgan, Order
Entry No. 119.10
App. 15
APPENDKI State of Delaware Department of
State Division of Corporation
Certification
App.19

XV111

TABLE OF CONTENTS—Continued
PAGE
APPENDIX J Connecticut Supreme Court
Order of Dismissal on
January 8, 2020,
App.29
APPENDIX K Quit-Claim Deed

App.31

APPENDIX L Bankruptcy Case # 11-31649
motion for relief from stay filed by attorney
for the plaintiff
App.35
APPENDIX M Order Granting relief from stay
by Bankruptcy court
App.40
APPENDIX N Department of New York
State Division of Corporation............ App.43
APPENDIX O Document Evidence Provided
Anonymously by member of the
Plaintiffs Attorney to the Petitioner
Notice of Removal
App.47

XIX

TABLE OF AUTHORITIES CITED
CASES
Levinson v. Lawrence, 162 Conn. App. 548,
565-66, 133 A.3d 468 (2016).............

PAGE
1,9

America’s Wholesale Lender v. Pagano, 87 Conn.
App. 474, 477-78, 866 A.2d
698 (2005
2, 12, 20, 21, 23, 32
America's Wholesale Lender v. Silberstein,
87 Conn.Ann. 485. 866 A.2d 695
(2005)
2, 12, 21, 23, 32
Jacobson v. Comm'r, 915 F.2d 832, 837
(2d Cir.1990)......................... .

3

Newman v. Comm'r, 902 F.2d 159, 162
(2d Cir.1990)...............................

3

Lesser v. Huntington Harbor Corp. (1985)
173 Cal.App.3d 922, 930
[219 Cal.Rptr. 562].........................

3

Caruso v. Bridgeport,
285 Conn. 618. 627. 941 A.2d 266
(2008).............................................

3

XX

TABLE OF AUTHORITIES - Continued
CASES

PAGE

Peters v. Dept ofSocial Services,
273 Conn. 434. 441. 870 A.2d 448
(2005).............................................

3

Caperton v. A.T. Massey Coal Co., 556 U.S. 868,
129 S. Ct, 2252, 2259, 173 L. Ed. 2d
1208 (2009)............................................ 11
League v. De Young, 52 U.S. 185, 203, 13 L.
Ed, 657 (1850)..................... ;...........

12

Isaac v. Mount Sinai Hospital, 3 Conn. App.
598, 490 A.2d 1024, cert, denied, 196 Conn.
807, 494 A.2d 904 (1985)
12, 21, 23
Fattibene v. Kealey, 18 Conn. App. 344, 558
A.2d 677 (1989)....................................

13

Roadway Express, Inc. v. Piper, 447 U.S. 752,
767, 100 S.Ct. 2455, 65 L.Ed.2d
488 (1980)................................................

13

Lesser v. Huntington Harbor Corp. (1985)
173 Cal. App. 3d 922, 930
[219 Cal. Rptr. 562].)......................

14

XXI

TABLE OF AUTHORITIES - Continued
CASES
Caldwell v. Samuels Jewelers (1990)
222 Cal.App.3d 970, 974-975
[272 Cal.Rptr. 126].)...............

PAGE

14

City of Long Beach v. Bozek (1982) 31 Cal. 3d 527.
530 [183 Cal. Rptr. 86, 645 P.2d 137],
[certiorari granted, vacated and
remanded 459 U.S. 1095 [74 L. Ed.
2d 943, 103 S. Ct. 712], reaffirmed and
reissued (1983)33 Cal. 3d 727 (190 Cal.
Rptr. 918, 661 P.2d 1072)]
15
Long Island Pub. Serv. Employees v. Town
Bd. of Town of Huntington, 31 F3d
1191,1194 (2d Cir. 1994)....................

16

Kukankis vs. Griffith, 180 Conn. 501
(1980)............................................

19

Baldwin Piano & Organ Co. v. Blake, 186 Conn.
295, 297-98, 441 A.2d 183 (1982)............. 21
Karp v. Urban Redevelopment Commission, 162
Conn. 525, 529, 294 A.2d 633 (1972)....... 21
Wilburn v. Mount Sinai Medical Center, 3 Conn.
App. 284, 288, 487 A.2d 568 (1985)
21

XXII

TABLE OF AUTHORITIES - Continued
CASES

PAGE

Bridgeport Bowl-O-Rama, Inc. v. Zoning Board
of appeals, 195 Conn. 276, 283, 487
A.2d 559 (1985)............................................. 21
Lusas v. St. Patrick’s Roman Catholic Church
Corp., 123 Conn. 166, 193 A
204 (1937)....................................................... 24
Morganti, Inc. v. Boehringer Ingelheim
Pharmaceuticals, Inc., 20 Conn. App. 67,
71-73, 563 A.2d 1055 (1989)................... ’ 24
Cruz v. FXDirect Dealer, LLC, 720 F.3d 115
120 (2d Cir. 2013)............................
26, 33
Schmuck v. United States, 489 U.S. 705
721 n. (1989).....................................’

27

Pereira v. United States, 347 U S 1 8
(1954).........................................

28

Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009)...................................................

30

United States v. Greenberg, 835 F.3d 295 305
(2d Cir. 2016)......................................’

33

XX111

TABLE OF AUTHORITIES - Continued
CASES

PAGE

United States v. Autuori, 212 F.3d 105 115
(2d Cir 2000)...............................

33

Cohen v. S.A.C. Trading Corp., 711 F.3d 353
359 (2d Cir. 2013)................................

34

STATUTES AND RULES
Conn. Gen. Stat. § 52-123................................ 2, 14
Practice Book § 10-31...................................

14

Rules 13.1

5

Rules 13.3

5

28 U.S.C. § 1254(1)

5

28 U.S.C. § 1332

6

28 U.S.C. § 1332(c)

18

28 U.S.C. §§ 1331

6

28 U.S.C. §§ 1343

6

18 U.S.C. §1961, et seq

6, 8, 12, 22, 33

XXIV

TABLE OF AUTHORITIES - Continued
CASES

PAGE

18 U.S.C. 1961(1) ..

33

18 U.S.C. § 1962(a)

26

18 U.S.C. § 1341 ...

passim

18 U.S.C. § 1343

passim

28 U.S.C. § 1257(a) ....
Practice Book § 71-7

7

11

Practice Book § 128.5 .

14, 15

Practice Book § 177.5 .

15

Gen. Stat. § 52-325a(c)

19

Gen. Stat. § 52-325b(a)

19

Gen. Stat. § 52-325c(a)

19

XXV

TABLE OF AUTHORITIES - Continued
CASES

PAGE

OTHER
14th Amendment

3, 8, 10, 11, 13, 17, 19, 20

COVHM9

5

Order list: 589 U.S

5

FIRREA
Civil RICO
U.S. Code Title 18

26

8, 12, 22, 23, 25, 26, 33
27, 29

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner, Pro Se Shlomit Ruttkamp,
respectfully prays that a writ of certiorari
issue to review the judgment below be
granted.
On February 27, 2012, the Connecticut
Superior Court dismissed the foreclosure action
filed by the Plaintiff-Respondent, The Bank of
New York Mellon, with a three-page
memorandum of decision that concluded that
because the Plaintiff-Respondent filed the
complaint under the trade name The Bank of
New York Mellon, and not the corporation’s
legal entity with legal capacity to sue, The Bank
of New York Mellon Corporation, it lacks
standards and therefore the Superior Court lacks
subject matter jurisdiction. The PlaintiffRespondent, The Bank of New York Mellon, did
not appeal the judgment of dismissal within the
20 days permitted by law, even though the law
contains no four-month grace period on a Dismiss
case that lacks subject matter jurisdiction. See
Levinson v. Lawrence, 162 Conn. App. 548,
565-66, 133 A.3d 468 (2016). The PlaintiffRespondent, The Bank of New York Mellon,
managed to file a motion to open judgment of

2

dismissal in a court that lacks subject matter
jurisdiction when a motion to open judgment is
not appropriate for a dismiss case that lacks
subject matter jurisdiction. According to the
Connecticut Appellate Court, it has held that the
mislabeling or misnaming of a defendant is a
circumstantial error that is curable under Conn.
Gen. Stat. § 52-123 when it does not result in
prejudice to either party. The Connecticut
Appellate Court has declined, however, to extend
the use of Conn. Gen. Stat. § 52-123 in this
manner to a Plaintiff that has used a fictitious
name for itself when commencing an action. (See
America’s Wholesale Lender v. Pagano, 87
Conn. App. 474, 477-78, 866 A.2d 698 (2005),
America fs Wholesale Lender v. Silberstein,
87 Conn.Ano. 485. 866 A.2d 695 (2005)).
Documents were not filed properly in this
foreclosure action under their correct party or the
holder of the mortgage. The courts of Connecticut
turned a blind eye to misleading statements in the
motion to open judgment by the PlaintiffRespondent, The Bank of New York Mellon, and
indulging circumstantial facts and fraudulent
activity in the court systems for the sake of
liability of mortgage which is both a violation of
the rules of court and ethically indefensible, and a
violation of a homeowner’s right to due process of
law and equal protection of the law as the
Petitioner is the sole owner of the property in the
custody of the court. The conduct... displays a
serious and alarming lack of respect of the

3

nation’s judiciaries, which calls upon the United
States Supreme Court for review. (See Jacobson
v. Comm'r, 915 F.2d 832, 837 (2d Cir.1990);
Newman v. Comm'r, 902 F.2d 159, 162 (2d
Cir.1990)). The courts of Connecticut granting
the Plaintiff-Respondent, The Bank of New York
Mellon’s, motion for sanctions without adequate
notice of its intention to impose sanctions and the
opportunity to be heard on the record, and for
discovery of evidence; it is a violation of the due
process clause of the 14th Amendment, due process
clauses of both the federal [citation], and state
[citation] Constitutions. [Citation.]"
(Lesser v. Huntington Harbor
Corp. (1985) 173 Cal.App.3d 922, 930 [ 219
Cal.Rptr. 562].) United States Constitution. Pro
Se Petitioner Shlomit Ruttkamp respectfully
prays that a writ of certiorari issue to review the
judgment below be granted as to both motion for
sanctions and the opportunity to be heard on the
record and for discovery of evidence, and subject
matter jurisdiction whether on the face of the
record, the court is without jurisdiction."
(Internal quotation marks omitted.) Caruso
v. Bridgeport, 285 Conn. 618. 627. 941 A.2d
266 (2008) as the book of law states that subject
matter jurisdiction should not be waived and can
be raised at any stage of the proceedings,
including in appeal Peters v. Dept, ofSocial
Services, 273 Conn. 434. 441. 870 A.2d 448
(2005).
♦

4

OPINIONS BELOW
For cases from state courts:
The opinion of the highest state court of
Connecticut Supreme Court to review the merits
appears at Appendix A (docket no. PSC
200322), opinion from reconsideration filed May
13, 2021, was denied on June 1, 2021; from case
(docket no. PSC 200215) Appendix B granting
motion for sanctions filed on January 25, 2021,
and granted on May 11, 2021, and it is
unpublished.
The opinion of the highest court of
Connecticut Supreme Court to review the merits
appears at Appendix C, a motion to dismiss filed
January 14, 2021 (case docket no. PSC 200204)
was denied May 11, 2021.
The opinion of the highest court of
Connecticut Supreme Court to review the merits
appears at Appendix D, motion for
reconsideration en banc filed on December 30,
2020 (case docket no. PSC 200194) was
dismissed May 11, 2021.
The opinion of the Connecticut Appellate
Court (docket no. AC 43974) to appeal a decision
of a trial court appears at Appendix E, dismissed
September 23, 2020.

5

The opinion of a Connecticut trial court
(docket no. MMXCV-10-6001915-S) appears at
Appendix F. Order entry no. 244.10 granted
February 11, 2020, and order entry no. 247.10
denied February 11, 2020, appears at
Appendix G.
♦

JURISDICTION
For cases from federal courts:
An extension of time to file a petition for
writ of certiorari was granted, in light of the
ongoing public health concerns relating to
COVID-19, on March 19, 2020 (order list: 589
U.S.). Deadline to file any petition for a writ of
certiorari due on or after the date of this order is
extended to 150 days from the date of the lower
court judgment (denial order date June 1, 2021,
(docket no. PSC 200322), followed by granting
of sanctions, (docket no. PSC 200215), denied
motion to dismiss (docket no. PSC 200204), and
dismissed reconsideration en banc, (docket no.
PSC 200194), all on May 11, 2021 pursuant to
rules 13.1 and 13.3. The petition for writ of
certiorari is due up to and including October 5,
2021.
The jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(1). The jurisdiction of this

6

Court is also invoked under diversity jurisdiction
pursuant to 28 U.S.C. § 1332 because this action
is between citizens of different states and the
amount in controversy exceeds the sum or value of
$75,000.00, exclusive of interest, costs and
attorney fees, and the Plaintiff-Respondent, The
Bank of New York Mellon, is not registered with
the Secretary of State of Connecticut to conduct
business or to sue and be sued by law and this
foreclosure action is four and a half years past the
Connecticut civil statute of limitations which is
six and a half years for a foreclosure action.
The jurisdiction of this Court is invoked
under 28 U.S.C. §§ 1331, 1343 and invoked under
racketeering activities pursuant to 18 U.S.C.
§1961, et seq. 18 U.S.C. § 1341 (Mail Fraud
Affecting a Financial Institution) and 18 U.S.C. §
1343 (Wire Fraud Affecting a Financial
Institution).
For cases from state courts:
The opinion of the highest state court of
Connecticut Supreme Court to review the merits
appears at Appendix A (docket no. PSC
200322), opinion from reconsideration filed May
13, 2021, was denied on June 1, 2021; from case
(docket no. PSC 200215) Appendix B granting
motion for sanctions filed on January 25, 2021,

7

and granted on May 11, 2021, and it is
unpublished.
The opinion of the highest court of
Connecticut Supreme Court to review the merits
appears at Appendix C, a motion to dismiss filed
January 14, 2021 (case docket no. PSC 200204)
was denied May 11, 2021.
The opinion of the highest court of
Connecticut Supreme Court to review the merits
appears at Appendix D, motion for
reconsideration en banc filed on December 30,
2020 (case docket no. PSC 200194) was
dismissed May 11, 2021.
The opinion of the Connecticut Appellate
Court (docket no. AC 43974) to appeal from a
decision of a trial court appears at Appendix E
dismissed September 23, 2020.
The opinion of a Connecticut trial court
(docket no. MMXCV-10-6001915-S) appears at
Appendix F. Order entry no. 244.10 granted
February 11, 2020, and order entry no. 247.10
denied February 11, 2020, appears at
Appendix G.
The jurisdiction of this court is invoked
under 28 U.S.C. § 1257(a).
♦

8

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
1.
This appeal will challenge the
constitutionality of the statute of state and
federal constitution right to due process of law
the 14th Amendment’s ratification. The 14th
Amendment to the United States
Constitution provides in relevant part: “No
state shall... deprive any person of... property,
without due process of law; nor deny to any
person within its jurisdiction the equal
protection of the laws.
2.

18 U.S.C. 1961, et seq. (the “RICO
Statute”).

3.

18 U.S.C. § 1341 (Mail Fraud Affecting
a Financial Institution).

4.

18 U.S.C. § 1343 (Wire Fraud Affecting
a Financial Institution).
♦

STATEMENT OF THE CASE
This foreclosure procedure commenced on
February 19, 2010, when the PlaintiffRespondent, The Bank of New York Mellon, filed

9

its first complaint under the trade name, The
Bank of New York Mellon, and not under the
corporation’s registered name, The Bank of New
York Mellon Corporation. The foreclosure was
dismissed for lack of subject matter jurisdiction on
February 27, 2012, with a three-page
memorandum of decision (see docket entry no.
119.10 Appendix H Judge Morgan’s order).
The Plaintiff-Respondent, The Bank of New York
Mellon, did not appeal Judge Morgan’s decision
within the 20 days of court ruling of dismissing
the underlying suit although the law contains no
four-month grace period for a dismissed case that
lacks subject matter jurisdiction (see Levinson v.
Lawrence. 162 Conn. App. 548, 565-66, 133
A.3d 468 (2016)). The Plaintiff-Respondent, The
Bank of New York Mellon, filed motion to open
judgment claiming they have made a mistake in
the motion for summary judgment, and in fact
The Bank of New York Mellon is not a Delaware
corporation. The Bank of New York Mellon is
a corporation duly authorized and validly
existing under the laws of the State of
Delaware (See Appendix I, State of Delaware,
Department of State, Division of Corporation
Certification). Throughout ten years of litigation,
the Plaintiff-Respondent, The Bank of New York
Mellon, is committing fraud, providing misleading
information to the court, and violating the rules of
law and the books of law and the oath upon which
they swore to uphold and the trial court abuses its
discretion for a favor of the Plaintiff-Respondent,

10

The Bank of New York Mellon, and chooses to
turn a blind eye to overwhelming evidence
provided to the court by the Petitioner, Shlomit
Ruttkamp. The Petitioner filed numerous appeals
and numerous certifications for review to the
Connecticut Supreme Court which unjustly,
without regard to the evidence and exhibits and
the opportunity to be heard on the record and for
discovery of evidence, was denied and dismissed.
On the hearings of February 3, 2020, the
Petitioner filed a motion to dismiss and provided
an exhibit that was provided to her by an
anonymous member of the law group, McCalla
Raymer Leibert Pierce, LLC to prove that this
litigation was commenced by the Plaintiff from
the beginning based upon a lie and fraudulent
litigation (see docket entry nos. 247.00 and
248.00). The vesting of the title of the property
was unjustly granted to the Plaintiff-Respondent
as they are not the rightful owners of such a title.
And the motion to dismiss should never have been
denied considering the evidence provided to
support the Plaintiff-Respondent’s lack of
standards and the court’s lack of subject matter
jurisdiction. And the Appellate Court should not
have deprived the Petitioner of her Due Process
Clause of the 14th Amendment to United States
Constitution, to aggrieve the judge’s rulings and
to have the record straight that the law date has
passed on January 8, 2020 when the Appellate
Court dismissed petition for certification for

11

review to the Connecticut Supreme Court filed by
the Petitioner on December 27, 2019 and was
dismissed only on January 8, 2020, two days after
the January 6, 2020 law date (see Order Case
No. SC 190319 Appendix J); therefore, the law
date was invalid, and the appeal filed on February
27, 2020 should not have been dismissed. And the
Petitioner’s motion notice to appeal and motion to
stay pending decision by the United States
Supreme Court (P.B. 71-7), filed May 18, 2020,
should not have been denied two months after
filing the motion when the Plaintiff-Respondent
never responded nor filed any objection to
Petitioner’s motion. Under due process of law, the
Petitioner, Shlomit Ruttkamp, should have the
constitutional right to petition the Government for
a redress of grievances.
♦
REASONS FOR GRANTING THE PETITION
This case involved a constitutional and
statutory provisions of state and federal
constitutions’ right to due process of law of the
14th Amendment’s ratification of the United States
Constitution A fair trial in a tribunal is a basic
requirement of due process. Caperton v. A.T.
Massey Coal Co., 556 U.S. 868,129 S. Ct, 2252,
2259, 173 L. Ed. 2d 1208 (2009). Because fraud

12

and misleading information on the courts pollutes
the process the Petitioner, Shlomit Ruttkamp and
society rely on for dispute-resolution. The Courts’
reason that a decision produced by fraud or
misleading information on the court with the
knowledge of the court is an 18 U.S.C. 1961, et
seq. (the “RICO Statute”) and is not in essence a
decision at all, and never becomes a final
judgment. A judgment obtained by fraud,
misleading information or collusion is void and
confer no vested title or final judgment. (See
League v. De Young, 52 U.S. 185, 203, 13 L.
Ed, 657 (1850)). In this case the evidence proving
beyond a shadow of a doubt that a judgment
obtained by fraud, misleading information or
collusion among all Respondents involved
including the courts of Connecticut committed
violation of 18 U.S.C. § 1341 (Mail Fraud
Affecting a Financial Institution) and 18 U.S.C. §
1343 (Wire Fraud Affecting a Financial
Institution). This case presents a nationally
important question on which courts are indecisive
and were divided in their decision when it comes
to subject matter jurisdiction. (See America’s
Wholesale Lender v. Pagano, 87 Conn. App.
474, 866 A.2d 698 (2005), America’s Wholesale
Lender v. Silberstein, 87 Conn. App. 485, 866
A.2d 695 (2005), and Isaac v. Mount Sinai
Hospital, 3 Conn. App. 598, 490 A.2d 1024,
cert, denied, 196 Conn. 807, 494 A.2d 904
(1985)), The United States Supreme Court shall
have original jurisdiction of all civil actions

13

arising under the Constitution, laws, or treaties of
the United States. The United States Supreme
Court have the subject matter jurisdiction to
review the petition for writ of certiorari.
I.

granting sanctions without the
court adequate notice of its
intention to impose sanctions and
the opportunity to be heard on the
record and discovery of evidence. Is
a violation of the due process clause
of the 14th Amendment to the United
States Constitution.

The Petitioner, Pro Se Shlomit Ruttkamp,
requested an oral argument and discovery of
evidence as required by Fattibene v. Kealey, 18
Conn. App. 344, 558 A.2d 677 (1989) and
Roadway Express, Inc. v. Piper, 447 U.S. 752,
767, 100 S.Ct. 2455, 65 L.Ed.2d 488 (1980), and
was denied oral argument and the right to due
process of law and equal protection of the law. The
Connecticut court has the history of denying the
right of pro se litigant to aggrieve an order upon
which the Superior Court violated the equal
protection of the law and turned a blind eye to
overwhelming evidence of the Respondent’s The
Bank of New York Mellon filing an illegal
foreclosure with fraudulent entities, illegal
existence, entities that has used a fictitious name

14

for itself when commencing an action, and
fraudulent litigation and misrepresentation of
facts. See in full details the motion Objection to
Plaintiff-Appellee’s Motion for Sanctions and
Motion to Hold Attorney Geraldine Cheverko in
Contempt of Court (see in case docket no. SC
200215), motion filed on January 29, 2021, the
order rendered by Connecticut Supreme Court on
May 11, 2021. Pursuant to practice book § 10-31
and Conn. Gen. Stat. § 52-123 in this foreclosure
matter The Bank of New York Mellon F/K/A The
Bank of New York as Trustee on Behalf of CIT
Mortgage Loan Trust 2007-1 commenced this
action under its trade name and not the
incorporated registered name. It is undisputed
that, "[ajdequate notice is mandated not only by
statute, but also by the due process clauses of both
the federal [citation], and state [citation]
Constitutions. [Citation.]" (See
Lesser v. Huntington Harbor
Corp. (1985) 173 Cal.App.3d 922, 930 [ 219
Cal.Rptr. 562].) to satisfy basic due process
requirements. Notice on the court’s own motion at
midday, with a hearing ordered at 9 a.m. the next
day is inadequate. However, notice given
concurrently with the "hearing" is adequate where
the parties so stipulate. ( Caldwellv. Samuels
Jewelers (1990) 222 Cal.App.3d 970, 974975 [272 Cal.Rptr. 126].)
Lesser concerned sanctions imposed pursuant
to Code of Civil Procedure section 128.5 The

15

language of Code of Civil Procedure sections
128.5 and 177.5, concerning notice
and opportunity to be heard, are identical in City
of Long Beach v. Bozek (1982) 31 Cal. 3d 527.
530 [183 Cal. Rptr. 86, 645 P.2d 137],
[certiorari granted, vacated and remanded
459 U.S. 1095 [74 L. Ed. 2d 943, 103 S. Ct. 712],
reaffirmed and reissued (1983)33 Cal. 3d
727 (190 Cal. Rntr. 918. 661 P.2d 1072)] and
requested an oral argument and discovery of
evidence.
Fourteenth Amendment-Legal Standard
Due Process Clause
Section 1 of the Fourteenth Amendment to the
United States Constitution provides: All persons
born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they
reside. No state shall make or enforce any law
which shall abridge the privileges or immunities
of citizens of the United States; nor shall any
state deprive any person of life, liberty, or
property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws. In the past thirty-five
years, the case law reads and is authority that: In
stating a claim of a violation of procedural due
process or equal protection of the laws, the
Petitioner, Pro Se Shlomit Ruttkamp alleges that:

16

(1) she had a valid property or liberty interest
that was deprived of (the ownership of 510
McVeagh Road in Westbrook, CT 06498 (see
Appendix K, Quitclaim Deed), and (2) that
interest was deprived of without due process or
equal protection of the laws, as fictitious
companies, fraudulent documents, and the
dismissal of the foreclosure action bearing Docket
No. MMX-CV-10-6001915-S for lack of subject
matter jurisdiction were final judgment an order
of dismissal by Judge Morgan (hereto attached see
Docket entry no. 119.10 Appendix H). In stating
a claim of a violation of substantive due process or
equal protection of the laws, the Petitioner, Pro Se
Shlomit Ruttkamp, alleges that: (1) she had a
valid property or liberty interest (the ownership of
510 McVeagh Road in Westbrook, CT 06498), and
(2) that interest was infringed upon in an
arbitrary or irrational manner of that interest
without due process or equal protection of the
laws, (see Long Island Pub. Serv. Employees
v. Town Bd. of Town of Huntington, 31 F3d
1191, 1194 (2d Cir. 1994) (internal quotation
marks omitted) as fictitious foreclosure
complaints fraudulent documents were used in
filing foreclosure procedures under the trade
fictitious name, (“the arbitrary allegation of
fictitious filing foreclosure complaints under the
trade fictitious name The Bank of New York
Mellon and a fraudulent fictitious company CIT
Mortgage Loan Trust 2007-1”) the court of the

17

State of Connecticut has deprived the Petitioner,
Pro Se Shlomit Ruttkamp, of her right to the
ownership of 510 McVeagh Road in Westbrook,
CT 06498 and that deprivation was affected
without equal protection of the laws. The title
transfer “so shocking, arbitrary, and egregious
that the Due Process Clause would not
countenance it even where it accompanied by full
procedural protection.” (a) So shocking in that
Federal Appellate Court of Connecticut denied the
due process of law and equal protection of the law
as the Petitioner, Pro Se Shlomit Ruttkamp, is the
sole owner of the property in the custody of the
court, (b) So arbitrary in that the fictitious
company, The Bank of New York Mellon was
named so similar to the ownership company, The
Bank of New York Mellon Corporation that
would remit much like they have all along, (c) So
egregious in the glaring, flagrant actions of
Federal Appellate Court of Connecticut, that the
Petitioner, Pro Se Shlomit Ruttkamp, alleges that
Federal Court of Connecticut conducted a
property swindling racket in the State of
Connecticut by Federal Plaintiff-Respondent’s
The Bank of New York Mellon who originally
targeted the Petitioner, Pro Se Shlomit Ruttkamp,
as the enterprise’s “pigeon” as defined by par...the
Federal Plaintiff-Respondent’s The Bank of New
York Mellon, acting individually and as part of
the enterprise, have devised a scheme to defraud
and to obtain money or property by means of false

18

and fraudulent pretenses and representations.
The scheme includes but is not limited to,
fraudulently creating a debt when in fact no debt
exists (bankruptcy case # 11-31649 motion for
relief from stay filed by attorney for the plaintiff
see Appendix L filed July 12th, 2011, order
granting relief from stay, Appendix M)
fraudulently creating of an additional The Bank
of New York Mellon, when in fact only one The
Bank of New York Mellon Corporation exists
(See Appendix N, Certification from the New
York State, Department of State, Division of
Corporation) fraudulently creating of Jurisdiction,
when new evidence provided to the court on
February 3, 2020, hearings (See a document filed
by the law group McCalla Raymer Leibert Pierce
LLC Notice of removal filed on April 19, 2018,
Appendix O) proves that all judgment was based
upon a lie and misleading information to the
court. And in fact, The Bank of New York
Mellon is a corporation duly authorized and
validly existing under the laws of the State
of Delaware Appendix 0 clearly shows on page
two, paragraph eight that “The Bank of New York
Mellon Corporation (“BNYMC”): BNYMC is a
Delaware corporation with its principal place of
business located in the State of New York.
Therefore, BNYMC is a citizen of Delaware and
New York within the meaning of 28 U.S.C. §
1332(c). There was no mistake in the litigation
culminating in the court’s February 27, 2012,

19

judgment of dismissal. As a result, by a. to c.
above, Petitioner, Pro Se Shlomit Ruttkamp, has
suffered the shock of her conscience that persists
to this day, and the United States Supreme Court
has jurisdiction to grant Petition for a Writ of
Certiorari.

II.

A judicial officer cannot
constitutionally take a real
property of a homeowner based
upon foreclosure mortgage to which
the homeowner was not an
obligor/mortgagor, and the note
ruled unenforceable as a matter of
law, without a violation of the due
process clause of the 14th
Amendment the statute of state and
federal constitution right to due
process of law.

The relief sought by Petitioner is a statutory
right provided by Gen. Stat. § 52-325a(c) and §
52-325b(a) born out of the Supreme Court
decision of Kukankis vs. Griffith, 180 Conn.
501 (1980), pursuant to the Due Process Clause of
the 14th Amendment to United States
Constitution. The jurisdictional basis of this
appeal is pursuant to § 52-325c(a). The standard
of review is plenary. The Appellate Court is
depriving the Pro Se Petitioner of her right to due

20

process of law the 14th Amendment to the United
States Constitution, to aggrieve as she is the sole
owner of the property in the custody of the court
(see Appendix K), a quitclaim-deed transfer and
signed by the sole borrower of the mortgage, the
first Defendant, William J. Ruttkamp, prior to his
bankruptcy procedures and the dismissal of
February 27, 2012. The property owner has a
right to defend any such statutorily and
constitutionally required presentation if the
owner proves ownership of the note and mortgage,
and that all the obligations established by the
note and mortgage have been satisfied in a
bankruptcy procedure by the first Defendant,
William J. Ruttkamp, the sole borrower of the
mortgage. Petitioner Shlomit Ruttkamp does not
have any obligation of any kind to the PlaintiffRespondent, The Bank of New York Mellon, or
any other individual. The home rightfully belongs
to the Petitioner, Shlomit Ruttkamp, and is fully
owned by her. The Plaintiffs-Appellee filed the
complaint under the trade name; it lacks
standards and therefore the Superior Court lacks
subject matter jurisdiction. (See America’s
Wholesale Lender v. Pagano, 87 Conn. App.
474, 477-78, 866 A.2d 698 (2005)). This is a factpleaded case that was dismissed for lack of subject
matter jurisdiction on February 27, 2012, with a
three-page memorandum of decision by Judge
Morgan. (Hereto attached see Appendix H). The
Connecticut Supreme Court upheld when a

21

question of jurisdiction is brought to the court’s
attention, that issue must be resolved before the
court can move on to the other matters. Baldwin
Piano & Organ Co. v. Blake, 186 Conn. 295,
297-98, 441 A.2d 183 (1982) and the Plaintiff in
this foreclosure action brought his suit under a
trade name and not the corporation’s registered
name regardless to the state of jurisdiction the
Plaintiff did not include the corporation’s name in
the caption of the complaint. The Bank of New
York Mellon alone is merely a name to describe
the name of the corporation doing business as The
Bank of New York Mellon Corporation to confer
jurisdiction on the court the plaintiff must have
an actual legal existence, that is he or it must be a
person in law or a legal entity with legal capacity
to sue and to provide the court with jurisdiction to
hear the cause of action. (See Karp v. Urban
Redevelopment Commission, 162 Conn. 525,
529, 294 A.2d 633 (1972).” Wilburn v. Mount
Sinai Medical Center, 3 Conn. App. 284, 288,
487 A.2d 568 (1985); see Bridgeport Bowl-ORama, Inc. v. Zoning Board of Appeals, 195
Conn. 276, 283, 487 A.2d 559 (1985)). This is a
fact-pleaded case that was dismissed for lack of
subject matter jurisdiction on February 27, 2012,
with a three-page memorandum of decision by
Judge Morgan. (See America’s Wholesale
Lender v. Pagano, 87 Conn. App. 474, 866
A.2d 698 (2005), America’s Wholesale Lender
v. Silberstein, 87 Conn. App. 485, 866 A.2d
695 (2005), and Isaac v. Mount Sinai

22

Hospital, 3 Conn. App. 598, 490 A.2d 1024,
cert, denied, 196 Conn. 807, 494 A.2d 904
(1985)).
III.

A judicial officer cannot
constitutionally participate in “[a]
scheme or artifice to defraud, or for
obtaining money or property by
means of false or fraudulent
pretenses, representations, or
promises...”.

The Petitioner, Pro Se Shlomit Ruttkamp,
alleges that, according to 18 U.S.C. 1961, et seq.
(the “RICO Statute”), the 18 U.S.C. § 1341 (Mail
Fraud Affecting a Financial Institution), and 18
U.S.C. § 1343 (Wire Fraud Affecting a Financial
Institution) there existed a racketeering
enterprise among all parties Respondent, and
shows by a preponderance of the evidence that
there exists a racketeering enterprise in the
courts of the State of Connecticut and all
attorneys that consist of: The Bank of New York
Mellon v. William J. Ruttkamp et al. All parties
Respondent conspired and collaborated to concoct
a dishonest scheme out of the Petitioner, Pro Se
Shlomit Ruttkamp, ownership of 510 McVeagh
Road in Westbrook, CT 06498 (“the property”).
The Petitioner, Pro Se Shlomit Ruttkamp, alleges
and shows with a clear and convincing evidence

23

that all Respondents violated the Civil RICO
Laws and various state laws by falsely claiming
that The Bank of New York Mellon F/K/A the
Bank of New York as Trustee on behalf of CIT
Mortgage Loan Trust 2007-1 was a New York
State Corporation, and not a Delaware
Corporation as it listed as Plaintiff in the original
Complaint dated February 19, 2010, and in the
Motion for Summary Judgment and is not/nor was
ever associated with The Bank of New York
Mellon Corporation duly authorized and validly
existing under the laws of the State of Delaware.
The court, Judge Morgan, and the attorneys
opened the dismissal on the basis of a place of
jurisdiction when the case was dismissed for lack
of subject matter jurisdiction an order of dismissal
by Judge Morgan (hereto attached see Docket
entry no. 119.10 Appendix H). based on the fact
that The Bank of New York Mellon F/K/A the
Bank of New York as Trustee on Behalf of CIT
Mortgage Loan Trust 2007-1 filed foreclosure
procedures under the trade and fictitious name of
the entity filing suit. See America’s Wholesale
Lender v. Pagano, 87 Conn. App. 474, 477-78,
866 A.2d 698 (2005), America’s Wholesale
Lender v. Silberstein, 87 Conn.App. 485. 866
A.2d 695 (2005)). The dismissal had no bearing
on the place of the jurisdiction of the business.
This case should never have been opened once the
case was dismissed for a lack of subject matter
jurisdiction Isaac v. Mount Sinai Hospital, 3
Conn.App. 598. 490 A.2d 1024. cert, denied,

24

196 Conn. 807, 494, A.2d 904 (1985). The trial
court had no jurisdiction to take further action in
the case, including considering the Plaintiffs
attorneys Motion to Open Judgment (docket entry
no. 128.00); Lusas v. St. Patrick’s Roman
Catholic Church Corp., 123 Conn. 166, 193 A.
204 (1937), the court, Judge Morgan, had no
jurisdiction over the parties to act further in the
case once the court dismissed the foreclosure for
lack of subject matter jurisdiction on February 27,
2012 (See order docket entry no. 119.10). The
Plaintiffs attorneys should not collaterally attack
in second proceeding in the same case, interest
portion of judgment from which no timely appeal
had been taken in the first instance of the
dismissal of February 27, 2012; Morganti, Inc. v.
Boehringer Ingelheim Pharmaceuticals, Inc.,
20 Conn. App. 67, 71-73, 563 A.2d 1055 (1989).
The Petitioner, Pro Se Shlomit Ruttkamp, claims
that the Respondents’ individual and collective
actions sought to deprive the Petitioner of her
equitable interest in her real property and at the
same time capture and redirect the Petitioner’s
equity towards themselves in furtherance of their
scheme of conspiracy, extortion, and fraud. The
Petitioner, Shlomit Ruttkamp claims, while
seemingly lawful, this practice in fact deprived
her of due process and equal protection of the
laws, and she was prevented the opportunity for
discovery of evidence in the court of law.
Furthermore, the Connecticut courts of appeal
refused time and time again to allow discovery of

25

evidence or oral argument. They denied and
dismissed every attempt by the pro se effort to a
fair procedure.
1.
Traditional RICO Statute predicate acts are
contained herein and include: (i) mail fraud (ii)
wire fraud (iii) financial institution fraud (iv)
witness tampering; (v) obstruction of justice; (vi)
extortion; (vii) retaliating against a witness,
victim, and (viii) a civil conspiracy to cover up
mail fraud, wire fraud, financial institution fraud,
witness tampering, obstruction of justice, and
retaliating against a witness, victim. These
predicate acts are pled with specificity in the
instant action.
2.

The RICO Statute contains a provision that
allows for the commencement of a civil action by a
private party to recover damages sustained
because of the commission of a RICO predicate
offense(s). The RICO Statute also permits a
private individual "damaged in his or her business
or property" by a "racketeer" to file a civil suit.
The Petitioner proves with a preponderance of the
evidence of the existence of such an enterprise as
pled elsewhere in the instant action; the
connection among these parties proves the
existence of an “enterprise”. There are Civil RICO
claims against all Respondents in this foreclosure
action.

26

3.
The Petitioner shows with specificity at
least two of four specified relationships between
the Respondent’(s) and the enterprise: the
Respondent(s) invested the proceeds of the
pattern of racketeering activity into the enterprise
(18 U.S.C. § 1962(a)), or the Respondent(s)
acquired or maintained an interest in, or control
of, the enterprise through the pattern of
racketeering activity (subsection (b)); or the
Respondent(s) conducted or participated in the
affairs of the enterprise "through" the pattern of
racketeering activity (subsection (c)); or the
Respondent(s) conspired to do one of the above
(subsection (d)). The enterprise is either the
'prize,' 'instrument, 'victim,' or 'perpetrator' of the
racketeers. A Civil RICO action can be filed in
Federal Court. And all the violations of section
1962 caused injury to the business or property of
the Petitioner Shlomit Ruttkamp (see Cruz v.
FXDirect Dealer, LLC, 720 F.3d 115, 120 (2d
Cir. 2013) (internal quotation marks omitted).
4.
The civil component allows the recovery of
treble damages (damages in triple the number of
actual/compensatory damages) and by Count Two
and Judgment Requested, the Petitioner demands
treble damages in the amount of One Million
Dollars ($1,000,000).
5.
As relevant to this action, FIRREA
authorizes the United States to recover civil

27

penalties for violations of bank fraud, false
statements, mail fraud, and wire fraud or
conspiracies to violate two provisions of Title 18 of
the United States Code:
First provision of Title 18 of the United States
Code is:
18 U.S.C. $ 1341(Mail Fraud Affecting a
Financial Institution) which proscribes the use
of “the Postal Service, or . . . private or commercial
interstate carrier” for the purpose of executing, or
attempting to execute, “[a] scheme or artifice to
defraud, or for obtaining Judgment money or
property by means of false or fraudulent
pretenses, representations, or promises...”. When
the Federal Hespondent(s), The Bank of New York
Mellon F/K/A the Bank of New York as Trustee on
behalf of CIT Mortgage Loan Trust 2007-1,
executed in the fictitious company fraudulent
documents for the collective benefit of the
fictitious company and Federal Respondent(s),
The Bank of New York Mellon F/K/A the Bank of
New York as Trustee on behalf of CIT Mortgage
Loan Trust 2007-1, devised or intended to devise a
scheme to defraud or to perform specified
fraudulent acts to obtain Judgment money or
property by means of false or fraudulent
pretenses, representations, or promises...”.and did
so by use of the U.S. mail (see Schmuck v.
United States, 489 U.S. 705, 721 n. (1989); see

28

also Pereira v. United States, 347 U.S. 1, 8
(1954), federal Respondent(s) violates the statute.
“Use of the Mail”
Under 18 U.S.C. section 1341, use of the mail
has been defined as any of the following:
A.
Placing materials in a post office,
mailbox, or other receptacle with intent that
the materials are delivered by either the U.S.
Postal Service or a private interstate mail
carrier to someone else.
B.
Receiving anything that has been
delivered to you by the U.S. Postal Service
or a private mail carrier; or
C.
Causing something to be delivered by
mail, such as asking someone else to put the
materials into a mailbox on your or their
behalf.
The Federal Respondent(s), The Bank of
New York Mellon F/K/A the Bank of New York as
Trustee on behalf of CIT Mortgage Loan Trust
2007-1, in these foreclosure procedures violated
the statute 18 U.S.C. § 1341 when they filed
fraudulent documents with fictitious company
(The Bank of New York Mellon) and fraudulent
entity (CIT Mortgage Loan Trust 2007-1) and

29

mailed it with the use of U.S. Post Office knowing
that the information and the documents filed and
mailed to each of the parties in the foreclosure
action were based upon lies, misleading
information and fraudulent entities.
Second provision of Title 18 of the United States
Code is:
18 U.S.C. $ 1343 (Wire Fraud Affecting a
Financial Institution) which proscribes the use
of “wire ... in interstate or foreign commerce” for
the purpose of executing, or attempting to
execute, “[a] scheme or artifice to defraud, or for
obtaining Judgment money or property by means
of false or fraudulent pretenses, representations,
or promises...” When Federal Respondent(s), The
Bank of New York Mellon F/K/A the Bank of New
York as Trustee on behalf of CIT Mortgage Loan
Trust 2007-1, executed in the fictitious company
fraudulent documents for the collective benefit of
the fictitious company and Federal Respondent(s),
The Bank of New York Mellon F/K/A the Bank of
New York as Trustee on behalf of CIT Mortgage
Loan Trust 2007-1, devised or intended to devise a
scheme to defraud or to perform specified
fraudulent acts and did so by use of the facsimile
machine and telephone in the fraudulent acts for
the benefit of the fictitious company and the
Federal Respondent(s), The Bank of New York
Mellon F/K/A the Bank of New York as Trustee on

30

behalf of CIT Mortgage Loan Trust 2007-1, in
defrauding the Federal Superior Court of
Connecticut at 1 Court Street, Middletown, CT
06457, and the Federal Appellate & Supreme
Courts of Connecticut, 231 Capitol Avenue,
Drawer Z. Station A, Hartford, CT 06106, and the
Petitioner, Shlomit Ruttkamp, for the benefit of
the enterprise recovery of negligent in filing
foreclosure procedures, they defrauded a financial
institution at all times relevant hereto, all
Respondent(s) created false documents fabricated
existing documents, and made false statement
while the swindle unfolded and began the
conspiratorial act of obstructing of justice and the
Respondent(s) are liable for the misconduct
alleged. (See Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009).
“Use of Wire Communication”
Under this statute, ‘‘wire communication”
means transmitting, receiving, or causing
something to be transmitted or received through
radio signal, television signal, an interstate
telephone or electronic communication in
furtherance of the scheme. This can include emails, text or instant messaging, cellular calls, or
Internet-based communications of any kind. The
Respondent(s) in these foreclosure procedures
violated the statute 18 U.S.C. § 1343 when they
e-filed each of the documents in the courts of
Connecticut knowing that the statement in the

31

documents were based upon lies, misleading
information and fraudulent entities to post the
unlawful debt on the internet website portal of the
participating entities, and to post fraudulent
foreclosure actions and other related documents
on the state courts electronic e-file system. Each
time the courts of Connecticut accepted such
documents, it represented the communication
between the parties. Any phone conversation, any
e-mail, faxed transaction, text messaging among
the defendants and others constituted an
enterprise that used the mails and wires to make
false representations to obtain money or property
by filing fraudulent documents fraudulent entity
(CIT Mortgage Loan Trust 2007-1) and
fictitious entity (The Bank of New York
Mellon) in state court concerning the foreclosure
of Petitioner Shlomit Ruttkamp’s property.
'Intent to Defraud”
A mail or wire fraud conviction means that
when the Respondent(s) committed the fraud and
scheme, they had the specific goal of committing
fraud when they placed the materials in the mail
or transmitted them through electronic e-file
system communications.
First, when the law firm attorneys filed the
motion to open judgment with the knowledge that
the statement was based upon fraudulent

32

statement and misleading information to the
court, they knew exactly the correct reason upon
which the case was dismissed, and they
manipulated the lack of knowledge of the
Petitioner Shlomit Ruttkamp by opening the case
upon a place of jurisdiction of an entity that filed
a suit under a fictitious trade name of a company.
See America’s Wholesale Lender v. Pagano,
87 Conn. App. 474, 477-78, 866 A.2d 698
(2005), America’s Wholesale Lender v.
Silberstein, 87 Conn.App. 485. 866 A.2d 695
(2005)).
Second, when they denied that The Bank
of New York Mellon is not the entity referred to in
the first complaint filed on February 19, 2010, and
on the motion for summary judgment and that it
is a different entity bank that is not associated
with The Bank of New York Mellon Corporation.
They knew that statement is a false statement,
and yet they made it with the knowledge that The
Bank of New York Mellon Corporation is the same
one that is incorporated in Delaware and in New
York State, and that there is only one Bank of
New York Mellon Corporation (see Appendix N).
Third, when Petitioner Shlomit Ruttkamp
pointed out that CIT Mortgage Loan Trust 2007-1
is a fraudulent entity, that it is not a bank, and
that it does not exist anywhere in the United
States of America, and Federal courts of
Connecticut and all Respondent(s) and their

33

attorneys refused to litigate the issue at hand,
they participated in racketeering activity and
violated a civil RICO claim of 18 U.S.C. § 1961, et
seq and caused injury to the Petitioner Shlomit
Ruttkamp and her property. (See Cruz v.
FXDirect Dealer, LLC, 720 F.3d 115, 120 (2d
Cir. 2013) (internal quotation marks omitted).

18 U.S.C. 1961(1) provides that the mail and wire
fraud statutes proscribe using the mails or a wire
communication to execute any scheme or artifice
to defraud, or for obtaining Judgment money or
property by means of bank fraud, false
statements, mail fraud, and wire fraud and
fraudulent pretenses, representations, or
promises. United States v. Greenberg, 835
F.3d 295, 305 (2d Cir. 2016) (quoting 18 U.S.C.
§§ 1341, 1343). The Federal Respondents, The
Bank of New York Mellon F/K/A The Bank of New
York as Trustee on behalf of CIT Mortgage Loan
Trust 2007-1, plan to deprive the Petitioner
Shlomit Ruttkamp of the property by trick, deceit,
chicane, and overreaching. (See United States v.
Autuori, 212 F.3d 105, 115 (2d Cir 2000)
(internal quotation marks omitted). The purpose
of the enterprise is to secure foreclosure
judgments on the Petitioner, Shlomit Ruttkamp’s,
property through fraudulent means and to use
those judgments to extract money from the owner
of that property with intent to defraud, knowledge

34

of the falsity, and the reckless disregard for the
truth (See Cohen v. S.A.C. Trading Corp., 711
F.3d 353, 359 (2d Cir. 2013) (internal quotation
marks omitted, alteration in original), thereby
depriving the owner of her equity assets. The
Superior Court of Connecticut lack of subject
matter jurisdiction see February 27, 2012,
Appendix H, three-page memorandum of
decision by Judge Morgan speaks for itself. The
Federal Respondent(s), The Bank of New York
Mellon F/K/A the Bank of New York as Trustee on
behalf of CIT Mortgage Loan Trust 2007-1, in this
foreclosure action brought this suit under a trade
name and not the corporation’s registered name
regardless to the state of jurisdiction the
Respondent(s), did not include the corporation’s
name in the caption of the complaint and
therefore The Bank of New York Mellon, lacks
standards and the Superior Court lacks subject
matter jurisdiction.
♦

35

CONCLUSION
The petition for a writ of certiorari should
be granted.
Respectfully/Submitted.
Pro se: Shlomit Ruttkamp
P.O. Box 611 V
Westbrook, CT 06498
Phone: 860-853-8859
Email: rshlomit@vahoo.com

October 5, 2021

